     Department of Homeland Security

     ��������������������������


      Review of U.S. Immigration and Customs 

  Enforcement’s Reporting of FY 2013 Drug Control 

           Performance Summary Report 





OIG-14-38                               February 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                     FEB 12 2014


MEMORANDUM FOR:	             Radha Sekar
                             Acting Executive Associate Director
                             Management and Administration
                             U.S. Immigration and Customs Enforcement

FROM:                        Mark Bell
                             Acting Assistant Inspector General for Audits

SUBJECT:	                    Review of U.S. Immigration and Customs Enforcement’s
                             Reporting of FY 2013 Drug Control Performance Summary
                             Report

Attached for your information is our final report, Review of U.S. Immigration and
Customs Enforcement’s Reporting of FY 2013 Drug Control Performance Summary
Report. U.S. Immigration and Customs Enforcement’s management prepared the
Performance Summary Report to comply with the requirements of the Office of
National Drug Control Policy Circular, Accounting of Drug Control Funding and
Performance Summary, dated January 18, 2013.

We contracted with the independent public accounting firm KPMG LLP to perform the
review. KPMG LLP is responsible for the attached independent accountants’ report,
dated February 04, 2014, and the conclusions expressed in it. We do not express an
opinion on the Performance Summary Report. This report contains no recommendation.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Sandra John, Acting Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                     Independent Accountants’ Report


Deputy Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Performance Summary Report of the U.S. Department of Homeland
Security’s (DHS) Immigration and Customs Enforcement (ICE) for the year ended September 30, 2013.
ICE’s management is responsible for the Performance Summary Report.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Performance Summary Report.
Accordingly, we do not express such an opinion.

Management of ICE prepared the Performance Summary Report to comply with the requirements of the
Office of National Drug Control Policy (ONDCP) Circular, Accounting of Drug Control and Performance
Summary, dated January 18, 2013 (the Circular).

Based on our review, nothing came to our attention that caused us to believe that the Performance
Summary Report for the year ended September 30, 2013, referred to above, is not fairly stated, in all
material respects, in conformity with criteria set forth in the Circular.

This report is intended solely for the information and use of management of DHS and ICE, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




February 4, 2014




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                                           Office (!f the Chief Financial Officer

                                                                           li.S. De(lartment of Homeland Security
                                                                           500 12th Street. SW
                                                                           Washington. D.C. 20536


                                                                           U.S. Immigration
                                                                           and Customs
                                                                           Enforcement
February 4, 2014

Ms. Anne L. Richards
Assistant Inspector General for Audit
U.S. Department of Homeland Security
Office of the Inspector General
1120 Vermont Avenue NW, l0 1h Floor
Washington, DC 20005

Dear Ms. Richards,

In accordance with the Office ofthe National Drug Control Policy circular, Drug Control Accounting,
dated January 18, 2013, enclosed is Immigration and Customs Enforcement's report of FY 2013 drug
performance metrics and targets.

If you require fmther assistance on this information, please contact Jamie Sturgis at (202) 732-6188.

                                          Sincerely,



                                         Ll v:r;,/\LA.' w..cJr:J.
                                                        !!! t) tri'U .:i
                                               na Jones
                                           Deputy Director, Office of Budget and Program Performance
                                          U.S. Immigration and Customs Enforcement
                               U.S. Department of Homeland Security
                             U.S. Immigration and Customs Enforcement

              Performance Summary Report of Drug Control Funds during FY 2013
                                   International Affairs

Metric 1: Percentage of overseas investigative hours spent on drug-related cases.

                  FY2009    FY2010    FY2011    FY2012    FY2013    FY2013    FY2014
                   Actual    Actual    Actual    Actual    Target    Actual    Target
                    3.80%     4.90%     6.30%     6.30%     6.30%     8.11%     6.90%

(1) Description

The outcome metric for International Affairs as a whole is the percentage of overseas investigative
hours spent on drug-related cases. This metric evaluates the percentage of Immigration and Customs
Enforcement’s (ICE) overall overseas investigations that impact counter-narcotics enforcement.

International Affairs supports U.S. drug control policy, specifically Office of National Drug Control
Policy (ONDCP) initiatives, by supporting the overall ICE mandate to detect, disrupt, and dismantle
smuggling organizations. Increased hours spent on drug-related cases directly lead to increased
detection, disruption and dismantlement of drug smuggling organizations. International Affairs’
investigative resources are directed at organizations smuggling contraband (including narcotics) into
the United States. International Affairs partners with domestic ICE components and with U.S. law
enforcement agencies overseas to leverage overseas resources mitigating global narcotics threats to the
U.S. This includes utilizing investigative and intelligence techniques to support domestic cases and
interagency cross-border initiatives.

This counter-narcotics performance metric is evaluated on a consistent basis for International Affairs.

It is, in some cases, put into Senior Executive Service (SES) performance plans, and is also tracked at a 

high managerial level by way of processes such as Homeland Security Investigations (HSI) Trak, ICE

Trak, programmatic monitoring, financial monitoring and quarterly expenditure reports.


(2) Actual performance results for FY 2013

In FY 2013, 8.11%of overseas investigative case hours were spent on drug-related cases, exceeding the
target of 6.3%. The percentage of overseas investigative hours spent on drug-related cases is derived
by dividing the drug-related case hours by the total investigative case hours of overseas agents.

(3) The performance target for FY 2014

The performance target for FY 2014 is 6.90%. The 6.90% target is based on the average three prior
years’ performance results. In establishing this metric, International Affairs plans to have sufficient
resources to support the same level of effort on drug related investigations.

(4) Quality of performance data
                                                  -2-
The database used to obtain International Affairs performance data is the Treasury Enforcement
Communication System (TECS), which is ICE’s automated case management system that records
investigative hours. International Affairs relies on the TECS system to ensure the performance data is
accurate, complete, and unbiased in presentation and substance. ICE conducts quality control
verification on all data received through the TECS to ensure the performance data are accurate,
complete, and unbiased in presentation and substance.

              Performance Summary Report of Drug Control Funds during FY 2013
                                           Intelligence

Metric 1: Number of counter-narcotics intelligence requests satisfied.

             FY 2009     FY 2010     FY 2011     FY 2012    FY 2013     FY 2013     FY 2014
              Actual      Actual      Actual      Actual     Target      Actual      Target
               1,969       338        2,721         552        560         656         656

(1) Description

Intelligence supports its customers by satisfying their intelligence requirements – providing products
and services that inform customers and close existing “intelligence gaps.” Customer requirements are
formally documented and captured within the Analytical Framework for Intelligence (AFI). Levied
requirements are then either “satisfied” by Intelligence, or not. In the latter case, an intelligence gap
remains. Satisfaction of customer requirements represents the “outcome” of Intelligence production in
that satisfying customer requirements closes the gap in their information needs and allows customers to
make informed decisions about executing law enforcement actions.

This counter-narcotics performance metric is evaluated on a consistent basis for Intelligence, and is in
some cases put into SES performance plans, but is also tracked at a high managerial level via such
processes as HSI Trak, ICE Trak, programmatic monitoring, financial monitoring and quarterly
expenditure reports.
An Intelligence Information Report (IIR) is a formal standardized method of disseminating raw
unevaluated information, on behalf of the Department of Homeland security (DHS) Intelligence
Enterprise (IE) and other information providers, to elements of the Intelligence Community (IC)
and the DHS IE as appropriate. This is the primary vehicle through which the Reports Section
shares this raw intelligence within ICE and throughout the DHS and the IC. At the end of fiscal
year (FY) 2013, the ICE Intelligence Program (to include HSI-Intel at HQ and the Special Agent
in Charge (SAC) Intelligence Programs in the field) produced a total of one thousand four
hundred and seventy (1,470) IIR products with four hundred and thirty-seven (437) counter-
narcotics related.
The Analytical Framework for Intelligence (AFI) allows HSI-Intel to maintain visibility on all
Intelligence products used by the HSI field offices and at headquarters (HQ). This system allows
HSI-Intel to run searches on specific mission areas, which include counter- narcotics and drug
smuggling Intel-related products. At the end of fiscal year (FY) 2013, the ICE Intelligence
Program (to include HSI-Intel at HQs and the SAC Intelligence Programs in the field) produced
                                                 -3-
a total of one thousand one hundred sixty (1,160) intelligence products with two hundred and
nineteen 219) counter-narcotics related.
(2) Actual performance results for FY 2013

In FY 2013, Intelligence accounted for six hundred and fifty-six (656) Counter-narcotic satisfied
requests, as reported by the HSI Office of Intelligence Collections and Operations Division. The new
performance results were calculated using the revised methodology. The FY 2013 targets were based
on prior year methodology, and can not be compared to the FY 2013 results based on the new
methodology. The new methodology was approved by ONDCP.

(3) Performance target for FY 2014

The performance target for FY 2014 is six hundred and fifty-six (656) counter-narcotics intelligence
requests satisfied. The target is based on the prior year actual data. ICE Intelligence is examining
other ways to create more robust performance measures in the area of drug enforcement, to include
intelligence production metrics based on drug related intelligence hours recorded in TECS.

(4) Quality of performance data

Databases used to validate Intelligence’s performance data are TECS, IIR and the AFI. Intelligence
conducts quality control verification on the AFI, IIR and TECS data to ensure the performance data is
accurate and unbiased in presentation and substance.

                 Performance Summary Report of Drug Control Funds During FY 2013
                                     Domestic Investigations

Metric 1: Percentage of significant high-risk transnational criminal investigations that result in a
disruption or dismantlement.

             FY 2012    FY 2013     FY 2013     FY 2014
              Actual     Target      Actual      Target
              18.0%       18.0%      31.8%        19%


(1)Description

ICE coordinated with the Office of National Drug Control Policy (ONDCP) and established new
performance metrics in FY 2012 to better indicate the success of counter-narcotics enforcement across
all investigative areas. This metric supports the National Counter Narcotics Strategy objectives and
initiatives to disrupt and dismantle transnational and domestic drug trafficking and money laundering
organizations. The new performance metric is “the percentage of significant, high risk transnational
criminal investigations that result in a disruption or dismantlement.” Agents submit enforcement
actions that meet the definition of either a disruption or dismantlement that involve criminal
investigations of cases deemed significant or high risk based on a pre-defined set of criteria reviewed
by a Significant Case Review (SCR) panel. The SCR panel reviews enforcement actions and examines
each submission of the criminal investigative elements that are being presented to ensure that it meets
the requirement of a disruption or dismantlement. A disruption is defined as actions taken in
                                                  -4-
furtherance of the investigation that impede the normal and effective operation of the target
organization or targeted criminal activity. Dismantlement is defined as destroying the target
organization’s leadership, network, and financial base to the point that the organization is incapable of
reconstituting itself.

Since this performance metric was implemented in 2012, ICE does not have performance data for
years prior to FY 2012 and is unable to report four years of performance data as required by the
ONDCP Circular: Accounting of Drug Control Funding and Performance Summary, Section 7.a.(2),
dated January 18, 2013.

(2) Actual performance results for FY 2013

In FY 2013, 31.8% of significant high-risk transnational criminal investigations resulted in a disruption
or dismantlement and exceeded the FY 2013 target of 18.0%.

(3) Performance target for FY 2014

The performance target for FY 2014 is 19%. The target is based upon prior year FY 2013 targets and
was developed using a conservative increase due to the fact that this is a new measure and process that
does not have enough years to complete a standard trend analysis. As more data is gathered, the target
will be based upon an average of three prior years’ performance results. Domestic Investigations has
taken proactive steps, including the use of the Significant Case Report Module in the TECS, to
enhance its management practices to better allocate investigative resources.

(4) Quality of performance data

The database used to validate Domestic Investigations performance data is TECS. Domestic
Investigations relies on the TECS system to ensure the performance data are accurate, complete, and
unbiased in presentation and substance. Domestic Investigations conducts quality control verification
on all data received through TECS to ensure the performance data are accurate, complete, and unbiased
in presentation and substance.

Metric 2: Percent of transnational drug investigations resulting in the disruption or
dismantlement of high threat transnational drug trafficking organizations or individuals

             FY 2012     FY 2013     FY 2013     FY 2014
              Actual      Target      Actual      Target
              12.0%       12.0%       42.6%        44%


(1) Description

ICE coordinated with the ONDCP and established performance metrics in FY 2012 to better indicate
the success of counter-narcotics enforcement across all investigative areas. The wording of the metric
was revised in FY 2013 as a part of the strategic measures presented to the Office of Management and
Budget (OMB); however, the methodology used to calculate this measure remains consistent with the
prior year. ICE supported ONDCP initiatives that include the National Counter Narcotics Strategy
objectives such as disrupting and dismantling transnational and domestic drug trafficking and money
                                                   -5-
laundering organizations. The performance metric is “the percentage of significant high risk drug
related illicit trade and illicit travel and finance investigations that result in a disruption or
dismantlement.” Agents submit enforcement actions that meet the definition of either a disruption or
dismantlement, which are cases deemed high impact or high risk based on a pre-defined set of criteria
and are reviewed by a SCR panel. The SCR panel reviews enforcement actions and examines each
submission to ensure that it meets the requirement of a disruption or a dismantlement. A disruption is
defined as actions taken in furtherance of the investigation that impede the normal and effective
operation of the target organization or targeted criminal activity. Dismantlement is defined as
destroying the target organization’s leadership, network, and financial base to the point that the
organization is incapable of reconstituting itself. Percentages are calculated by dividing drug-related
enforcement actions (deemed a disruption or dismantlement) by the total number of enforcement
actions within the domestic program.

Since this performance metric was implemented in 2012, ICE does not have performance data for
years prior to FY 2012 and is unable to report four years of performance data as required by the
ONDCP Circular: Accounting of Drug Control Funding and Performance Summary, Section 7.a.(2),
dated January 18, 2013.

(2) Actual performance results for FY 2013

In FY 2013, 42.6% of significant high-risk drug-related, illicit trade, travel and finance investigations
resulted in a disruption or dismantlement. Thus, the FY 2013 target of 12.0% was met.

(3) Performance target for FY 2014

The performance target for FY 2014 is 44%. The target is based upon the Future Year Homeland
Security Program (FYHSP) requirements. FYHSP requirements are Government Performance and
Results Act (GPRA) measures determined by the Office of Management and Budget (OMB). In
establishing this metric, Domestic Investigations plans to have sufficient resources to support the same
level of effort on drug related investigations.

(4) Quality of performance data

The database used to validate Domestic Investigations performance data is the TECS. Domestic
Investigations relies on the TECS system to ensure the performance data is accurate, complete, and
unbiased in presentation and substance. Domestic Investigations conducts quality control verification
on all data received through the TECS to ensure the performance data are accurate, complete, and
unbiased in presentation and substance.

                                 ICE Management Assertion Report

Management Assertions

   1. Performance reporting system is appropriate and applied.
      ICE uses the TECS, IIR and AFI investigative and intelligence case tracking systems of record
      to capture performance information. The TECS, IIR and AFI data is well-documented,
      accurately maintained, and reliable, and those systems were properly applied to generate the
      most recent performance data available for the FY 2013 performance period.
                                                    -6-
   2. Explanations for not meeting performance targets are reasonable.
      In FY 2013, ICE actuals met and exceeded all performance targets

   3. Methodology to establish performance targets is reasonable and applied.
      The methodology described above to establish performance targets for FY 2013 is reasonable
      given past performance and available resources.

   4. Adequate performance metrics exist for all significant drug control activities.
      ICE has established more than one acceptable performance metric for its Drug Control
      Decision Unit—Salaries and Expense. These measures were developed in consideration and
      support of the ONDCP National Counter Narcotics Strategy as well as DHS and ICE Strategic
      plan objectives and initiatives.

                         Exhibit 1: Additional Drug Enforcement Statistics

Domestic Investigations keeps track of additional statistics to monitor their drug enforcement efforts.
Domestic Investigations does not set targets for seizures and only provides year end data. Note “high
impact” as discussed in statistics 3 through 6 is defined as the weight limit for a seizure that would
constitute a federal drug identification number from the El Paso Intelligence Center.


Statistic 1: Dollar value of real or other property seizures derived from/and/or used in drug
operations.

              FY2009        FY2010        FY2011          FY2012       FY2013
               Actual        Actual        Actual          Actual       Actual
              $94.2M        $47.2M        $53.7M          $39.8M       $41.4M

Statistic 2: Dollar value of seized currency and monetary instruments from drug operations.

              FY 2009       FY 2010       FY 2011         FY 2012     FY 2013
               Actual        Actual        Actual          Actual      Actual
             $155.3 M       $115.2 M      $232.4 M        $155.7 M     $1.05 B

Statistic 3: Percentage of total cocaine seizures considered high impact.

              FY 2009       FY 2010       FY 2011         FY 2012     FY 2013
               Actual        Actual        Actual          Actual      Actual
                62%           60%           54%             49%         46%

Statistic 4: Percentage of heroin seizures considered high impact.

              FY 2009       FY 2010       FY 2011         FY 2012     FY 2013
               Actual        Actual        Actual          Actual      Actual
                67%           71%           68%             54%         52%
                                                 -7-

Statistic 5: Percentage of marijuana seizures considered high impact.


             FY 2009       FY 2010       FY 2011       FY 2012       FY 2013
              Actual        Actual        Actual        Actual        Actual
               57%           57%           48%           43%             36%

Statistic 6: Percentage of methamphetamine seizures considered high impact.

             FY 2009       FY 2010       FY 2011       FY 2012       FY 2013
              Actual        Actual        Actual        Actual        Actual
               52%           56%           65%           63%             61%
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   DHS Component Liaison
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Office of National Drug Control Policy

   Associate Director for Planning and Budget

   U.S. Immigration and Customs Enforcement

   Director
   Chief Financial Officer
   Audit Liaison

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-38
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
